No. 21A21
IN THE

Supreme Court of the United States
________________
JOSEPH R. BIDEN, JR., PRESIDENT OF THE UNITED STATES ET AL.,
Applicants,
v.
TEXAS, ET AL.,
Respondents.
________________
ON EMERGENCY APPLICATION FOR STAY PENDING APPEAL TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
________________
MOTION FOR LEAVE TO FILE BRIEF AND BRIEF OF NON-PROFIT ORGANIZATIONS AND FORMER IMMIGRATION JUDGES AS AMICI CURIAE
IN SUPPORT OF APPLICANTS
________________
Katherine E. Melloy Goettel
Aaron Reichlin-Melnick
Gianna Borroto
AMERICAN IMMIGRATION COUNCIL
1331 G Street, NW
Suite 200
Washington, DC 20005
Allison Perlin
Rebecca Gendelman
Kennji Kizuka
Anwen Hughes
HUMAN RIGHTS FIRST
805 15th Street, NW
Suite 900
Washington, DC 20005

Karen Musalo
Counsel of record
Blaine Bookey
Anne Dutton
CENTER FOR GENDER & REFUGEE STUDIES
200 McAllister Street
San Francisco, CA 94102
(415) 703-8202
musalok@uchastings.edu
Melissa Crow
SOUTHERN POVERTY LAW CENTER
1101 17th Street, NW, Suite 705
Washington, DC 20036
Gracie Willis
SOUTHERN POVERTY LAW CENTER
150 E. Ponce de Leon Ave.
Suite 340
Decatur, GA 30030

Counsel for Amici Curiae

MOTION FOR LEAVE TO FILE*

Amici the American Immigration Council, American Immigration Lawyers Association, Catholic Legal Immigration Network, Inc., Center for Gender & Refugee
Studies, Human Rights First, Justice Action Center, National Immigration Law Center, Southern Poverty Law Center, and the Round Table of Former Immigration
Judges respectfully move for leave to file a brief as amici curiae in support of Applicants’ request for a stay; to file the enclosed brief without 10 days’ advance notice to
the parties of Amici’s intent to file; and to file in the unbound format on 8½-by-11inch paper. See Sup. Ct. R. 37.2(a). Respondents do not oppose the filing of this brief,
and the Government takes no position on it.
1. Statement of Movants’ Interest. Prospective Amici seek leave to file the attached brief to explain errors in the factual findings underpinning the permanent
injunction issued by the district court, which orders the Applicants to reinstate the
Migrant Protection Protocols (“MPP”). In light of their extensive experience in the
field of asylum research and practice in general, and MPP in particular, Amici respectfully submit that their unique perspective “may be of considerable help to the
Court.” Sup. Ct. R. 37.1.
Prospective Amici have a substantial interest in the issues presented in this
case, which implicate the opportunities for asylum seekers to access their statutory
and constitutional rights. The ability of asylum seekers to pursue protections in the

No counsel for any party authored the amici brief in whole or in part, and no person
or entity other than amici made a monetary contribution to its preparation or submission.
*

i

United States as guaranteed under domestic and international law is core to the mission of each organization. The outcome of this litigation is thus of great importance
to Amici.
Prospective Amici have also litigated numerous cases involving the rights of
asylum seekers and immigrants, including those addressing MPP specifically. See,

e.g., Innovation Law Lab v. Mayorkas, 3:19-cv-807 (N.D. Cal.); Nora v. Mayorkas,
1:20-cv-993 (D.D.C.); Immigrant Defenders Law Center v. Mayorkas, 2:20-cv-09893
(C.D. Cal.); Immigrant Defenders Law Center v. DHS, 2:21-cv-00395 (C.D. Cal.).
Moreover, they have investigated conditions for migrants in Mexico and the operation
of MPP in practice, and have authored reports that appear in the administrative record (“AR”). See, e.g., AR 374, 557, 590, 639.
2. Statement Regarding Brief Form and Timing. Given the expedited consideration of the stay application, Amici respectfully request leave to file the enclosed brief
in support of the stay application without ten days’ advance notice to the parties of
intent to file and to file in unbound format on 8 ½ by 11 in paper.. See Sup. Ct. R.
37.2(a). The court of appeals denied the Government’s emergency motion for a stay
on August 19, 2021. The application for stay was filed with this Court on August 20,
2021. That same day, this Court ordered a response by August 24, 2021 at 5 p.m. On
August 20, 2021, counsel for Amici gave notice to all parties of the intent to file an

amici brief in support of a stay. Amici filed a similar brief in proceedings before the
Fifth Circuit. Respondents gave their consent on August 20, 2021. On August 21,
2021, Applicants indicated they take no position on this motion. The above justifies

ii

the request to file the enclosed brief without 10 days’ advance notice to the parties of
intent to file and in unbound format.
CONCLUSION
The Court should grant leave to file the accompanying amici brief in support
of a stay; to file the enclosed brief without 10 days’ advance notice to the parties of

Amici’s intent to file; and to file in unbound format on 8½-by-11-inch paper.
August 23, 2021

Respectfully submitted,

Katherine E. Melloy Goettel
Aaron Reichlin-Melnick
Gianna Borroto
AMERICAN IMMIGRATION COUNCIL
1331 G Street, NW
Suite 200
Washington, DC 20005

Karen Musalo
Counsel of record
Blaine Bookey
Anne Dutton
CENTER FOR GENDER & REFUGEE STUDIES
200 McAllister Street
San Francisco, CA 94102
(415) 703-8202
musalok@uchastings.edu

Allison Perlin
Rebecca Gendelman
Kennji Kizuka
Anwen Hughes
HUMAN RIGHTS FIRST
805 15th Street, NW Suite 900
Washington, DC 20005

Melissa Crow
SOUTHERN POVERTY LAW CENTER
1101 17th Street, NW
Suite 705
Washington, DC 20036
Gracie Willis
SOUTHERN POVERTY LAW CENTER
150 E. Ponce de Leon Ave.
Suite 340
Decatur, GA 30030

Counsel for Amici Curiae

iii

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES .......................................................................................... v
INTEREST OF AMICI CURIAE ................................................................................... 1
SUMMARY OF ARGUMENT ....................................................................................... 1
ARGUMENT .................................................................................................................. 3
I.

The Record Does Not Support the Conclusion that Terminating MPP
Contributed to a Border Surge ........................................................................... 3

II.

The Record Does Not Support the Conclusions Regarding MPP In Absentia
Rates and Their Root Causes ............................................................................. 6

III.

A.

The Record Establishes that a 44% In Absentia Rate for Individuals in
MPP is an Unacceptably High Number .................................................. 6

B.

The Record Documents Systemic Deficiencies in MPP that Contribute
to Higher In Absentia Removal Orders ................................................... 7
1.

Asylum seekers abandoned their claims due to alarming
conditions in Mexico, not because their claims lacked merit....... 7

2.

Inherent procedural problems with MPP, including lack of
notice, led to unusually high in absentia rates .......................... 11

3.

Inability to access counsel exacerbated in absentia rates ......... 13

The Lower Courts Disregarded Extensive Record Evidence that a 2019 DHS
Assessment of MPP was Wrong. ...................................................................... 14

CONCLUSION............................................................................................................. 15

iv

TABLE OF AUTHORITIES
Page(s)
Cases
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983) .................................................................................................. 15
Public Citizen v. EPA,
343 F.3d 449 (5th Cir. 2003) .................................................................................... 3
Rewis v. United States,
445 F.2d 1303 (5th Cir. 1971) .................................................................................. 3
Texas v. Biden,
No. 21-cv-067-Z, 2021 WL 3603341 (N.D. Tex. Aug. 13, 2021) .....................passim
Texas v. Biden,
No. 21-10806, 2021 WL 3674780 (5th Cir. Aug. 19, 2021) ............................passim
Other Authorities
8 C.F.R. § 1239.1 .......................................................................................................... 11
Contrasting Experiences: MPP vs. Non-MPP Immigration court cases, Transactional
Records Access Clearing House (Dec. 19, 2019),
https://trac.syr.edu/immigration/reports/587. ....................................................... 13

v

INTEREST OF AMICI CURIAE1

Amici are non-profit organizations2 and former immigration judges with extensive experience in U.S. asylum and immigration law, including close familiarity
with the Migrant Protection Protocols (“MPP”). Together these organizations have
engaged in asylum work and research for decades and worked to ensure that asylum
seekers are afforded access to their statutory and constitutional rights in alignment
with international standards. Amici thus have a strong interest in the issues in this
case that impact their core missions and expertise.
SUMMARY OF ARGUMENT

Amici submit this brief in support of the application of the U.S. Government
(“Government”) to stay the district court injunction in this matter pending disposition
of the expedited appeal in the Fifth Circuit Court of Appeals and, if necessary, pending the filing and disposition of a petition for a writ of certiorari in this Court.
On June 1, 2021, Secretary of the Department of Homeland Security (“DHS”)
Alejandro Mayorkas issued a memorandum terminating the Migrant Protection Protocols (“MPP”). MPP forcibly returned people seeking asylum in the United States to

No counsel for any party authored this brief in whole or in part, and no person or
entity other than amici curiae or its counsel made a monetary contribution to the
preparation or submission of this brief. In writing, counsel for Respondents consented
to the filing of this brief, and Applicants indicated that they do not take a position on
the filing.
1

Amici non-profit organizations are the American Immigration Council, American
Immigration Lawyers Association, Catholic Legal Immigration Network, Inc., Center
for Gender & Refugee Studies, Human Rights First, Justice Action Center, National
Immigration Law Center, Southern Poverty Law Center, and former Immigration
Judges.
2

1

dangerous conditions in Mexico while their cases progressed through U.S. courts. As
documented in the administrative record (“AR”), MPP was a humanitarian catastrophe: asylum seekers were murdered, raped, kidnapped, extorted, and compelled to
live in squalid conditions where they faced significant procedural barriers to meaningfully presenting their protection claims. In proceedings below, the district court
and the Fifth Circuit ignored these serious and intractable problems, which DHS
acknowledged in ending MPP, and ordered DHS to abandon its chosen methods of
border management and reinstate MPP.
DHS’s decision to terminate MPP was neither arbitrary nor capricious. The
court of appeals’ decision adopted two incorrect factual findings from the district court:
that MPP effectively (1) deterred migration, indicated by increased arrivals following
MPP’s suspension in January 2021; and (2) reduced meritless asylum claims, indicated by the high rates of in absentia removal orders issued to MPP enrollees. See

Texas v. Biden, No. 21-10806, 2021 WL 3674780, at *4, *10, *12 (5th Cir. Aug. 19,
2021) (“Fifth Circuit Order”), denying stay of Texas v. Biden, No. 2:21-cv-67, 2021 WL
3603341 (N.D. Tex. Aug. 13, 2021) (“District Court Order”). Working off these facts,
the Fifth Circuit denied a stay of the district court’s injunction, concluding that Texas
and Missouri were likely to succeed on the merits of their claim that the termination
of MPP was arbitrary and capricious because DHS did not consider the asserted benefits of MPP or adequately explain its concern over high rates of in absentia removal
orders. Fifth Circuit Order at *10-12.

2

The injunction cannot stand and a stay is warranted because the district
court’s underlying factual findings are clearly erroneous and based on a highly selective review of the record, as well as a flawed reading of the termination memorandum.

Rewis v. United States, 445 F.2d 1303, 1304 (5th Cir. 1971). DHS’s decision to terminate MPP is supported by substantial evidence in the record, which cannot be overcome by the lower courts’ attempt to “substitute [their] judgment for that of the
agency.” Public Citizen v. EPA, 343 F.3d 449, 455 (5th Cir. 2003). As such, the Applicants are likely to succeed on the merits of their claim, meeting this prong of the
standard for a stay.3
ARGUMENT
I.

The Record Does Not Support the Conclusion that Terminating MPP
Contributed to a Border Surge
The Fifth Circuit incorrectly held that the district court did not clearly err in

finding that suspending MPP “contributed to [a] border surge,” District Court Order
at *9, and that Secretary Mayorkas ignored “prescient” warnings that a “surge” would
occur if MPP were terminated, District Court Order at *19. Data in the administrative record shows the clear error of the lower courts’ conclusions.

First, border encounters had been rising before the Government suspended
MPP. From April through December 2020, border encounters increased from 17,106

The harms to asylum seekers in Mexico and due process violations occasioned by
MPP detailed in this brief also support the public interest prong. The public has an
interest in ensuring compliance with international obligations to refugees that have
been incorporated into domestic law.
3

3

to 74,018, a 333% increase. AR669. Rather than a sudden surge once MPP was suspended in January 2021, “[s]ince April 2020, the number of encounters at the southwest border has been steadily increasing.” AR622; see AR631 (“[M]igration started to
increase in April 2020.”). By December 2020, border encounters were already at their
highest since summer 2019 during the “surge” that MPP was allegedly designed to
restrain. AR669. Thus, the district court’s finding that Secretary Mayorkas disregarded the possibility that “the suspension of the MPP . . . would lead to a resurgence”
of border crossings, District Court Order at *19, was clearly erroneous. The “resurgence” had already occurred months earlier. See AR621-27, 628-32; 660-69.

Second, although MPP was officially suspended in January 2021, for all intents
and purposes, MPP had already been suspended much earlier—in March 2020—
when the Trump administration created the Title 42 expulsion policy. See AR622 (explaining Title 42). Under Title 42, the vast majority of individuals encountered at the
border, including those who would otherwise have been subjected to MPP, were expelled without processing under Title 8. AR662.
By the time MPP was suspended in January 2021, it had been almost entirely
replaced by Title 42. From October through December 2020, just 1.2% of border encounters resulted in an MPP enrollment—2,574 of 216,681. AR660. By comparison,
92% of border encounters over that period resulted in an expulsion under Title 42 or
other form of removal. AR660. A significant portion of people expelled under Title 42
then immediately crossed the border again, contributing to the increase in border
encounters that the district court erroneously blamed on the suspension of MPP.

4

AR631-32. Furthermore, as the record makes clear, the primary reason that migrants
come to the United States is conditions in their home country, not U.S. policy. AR431,
458, 630. The lower courts’ conclusions about the effect of terminating MPP rest on
the faulty premise that correlation equals causation. See District Court Order at *9
(“Since MPP’s termination, the number of enforcement encounters on the southwest
border has skyrocketed.”).
Third, the lower courts’ finding that “DHS previously acknowledged that ‘MPP
contribute[d] to decreasing the volume of inadmissible aliens’” crossing the border is
not supported by the record and is flatly false. Fifth Circuit Order at *8 (listing this
finding of fact); District Court Order at *9 (citing AR555). The document on which
the district court relied for this finding merely states that decreased border crossings
is a quantitative “metric” for assessing MPP’s goals. See AR555 (“Goal: MPP provides
a deterrent to illegal entry. Metric: MPP implementation contributes to decreasing
the volume of inadmissible aliens . . . .”). What the district court claimed was DHS
“acknowledg[ing]” MPP’s effects was, in fact, a description of how DHS would measure whether MPP was meeting its goals or failing to do so. District Court Order at *9.
It was not a qualitative assessment of whether those goals were met.
DHS’s decision to terminate MPP in favor of different strategies to manage
border arrivals is supported by substantial evidence in the record, which shows that
the suspension of MPP could not have materially contributed to an increase in border
encounters.

5

II. The Record Does Not Support the Conclusions Regarding MPP In Absentia Rates and Their Root Causes
A. The Record Establishes that a 44% In Absentia Rate for Individuals
in MPP is an Unacceptably High Number
One primary reason for terminating MPP was the “high percentage of [MPP]
cases completed through the entry of in absentia removal orders.” AR4. In reaching
its conclusion that there were supposedly “similarly high rates of in absentia removals prior to implementation of MPP,” the district court inappropriately cited to extrarecord statistics from the Executive Office for Immigration Review (“EOIR”) on the
non-detained “in absentia rate,” and misrepresented the relevant government statistics provided in the record. District Court Order at *21 (emphasis in original). The
Fifth Circuit affirmed this clear error. Fifth Circuit Order at *12.
EOIR in absentia rates “overstate the rate at which immigrants fail to appear
in court.” AR565. “In absentia rate” is an EOIR statistic produced by dividing annual

in absentia removal orders by annual “initial case completions.” AR563. It does not
represent the rate at which people fail to appear in court. AR565. For example, if 10
people are scheduled to appear for a hearing, one person is ordered removed for failure to appear, and no other cases are completed, the in absentia rate for that day
would be 100%. A 100% “in absentia rate,” therefore, does not indicate that 100% of
the cases heard on a given day resulted in in absentia orders.
The termination memorandum did not cite the EOIR in absentia rate for MPP.
It used an entirely different statistic, calculating that 44% of all MPP cases ever filed
ended with an in absentia removal order. AR4. This is nearly three times higher than

6

the 17% of non-detained removal cases filed inside the United States that end with
an in absentia order. AR564.
Even if the termination memorandum had used the EOIR method cited by the
district court, the conclusion would have been the same. The EOIR in absentia rate
for MPP cases was 63%—27,802 MPP cases ended with an in absentia removal order,
AR634, out of 44,014 initial case completions. AR555. This is far greater than the
EOIR non-detained in absentia rate cited by the lower courts. Fifth Circuit Order at
*12; District Court Order at *21.
Using either the district court’s or the termination memorandum’s calculation
method, the rate at which people were unable to attend court hearings was unacceptably higher under MPP than for people inside the United States. Therefore, the Secretary’s reliance on that fact was neither arbitrary nor capricious, and was supported
by the record.
B. The Record Documents Systemic Deficiencies
Contribute to Higher In Absentia Removal Orders

in

MPP

that

1. Asylum seekers abandoned their claims due to alarming conditions in Mexico, not because their claims lacked merit
The Fifth Circuit held that the Government “cherry-pick[ed]” statistics in finding in absentia rates troubling. Fifth Circuit Order at *12 n.5. But the lower courts’
quick dismissal of the in absentia problems with MPP ignores voluminous evidence
in the record regarding MPP’s perils. The record contains irrefutable evidence of the
dangers faced by asylum seekers in Mexico as well as systemic barriers to obtaining
protection in MPP proceedings, resulting in many in absentia orders. DHS ignored
these due process violations when initiating MPP, but later correctly acknowledged
7

them in conducting an internal “Red Team” review in November 2019. See AR3-4;
AR196-200. Secretary Mayorkas’ conclusion that the in absentia rate is troubling and
raises questions is amply supported by the record.
The termination memorandum, in a portion neither the district court nor the
court of appeals discussed, referred to concerns about “whether the process provided
enrollees an adequate opportunity to appear for proceedings to present their claims
for relief.” AR4. And it also expressed concerns about “whether conditions faced by
some MPP enrollees in Mexico, including the lack of stable access to housing, income,
and safety” were driving the high in absentia rate. AR4.
The administrative record makes clear the factual basis for those concerns.
From the moment individuals and families were returned to Mexico under MPP,
many faced unrelenting violence that threatened their lives and blocked their access
to protection in the United States. There are at least 1,544 public reports of murder,
rape, kidnapping, and other violent attacks against asylum seekers and migrants returned to Mexico under MPP. AR595. Médecins Sans Frontières reported that 75% of
its patients returned to the border city of Nuevo Laredo under MPP in October 2019
alone were kidnapped. AR485. Many asylum seekers in MPP have been targeted because of their race, nationality, gender, sexual orientation, or other protected characteristics. AR604. And the true scale of violence caused by MPP is surely far greater,
as most individuals and families returned to Mexico under MPP have not spoken with
human rights investigators or journalists.

8

The danger to and harm experienced by those in MPP was a direct result of the
policy itself. See AR358 (statement by Asylum Officer whistleblower to Congress that
MPP “actively places asylum seekers in exceptionally dangerous situations”). To
reach U.S. immigration courts, asylum seekers and other migrants in MPP were repeatedly forced to run a gauntlet of kidnapping and assault—unconscionable violence
no one attending a non-MPP immigration court hearing in the United States would
face. AR469, 485. For example, the record shows asylum seekers were routinely assaulted and kidnapped near the ports of entry while traveling to or from their MPP
hearings. AR485, 374-421 (collected reports of violence towards individuals in MPP);
AR472 (woman sexually assaulted in front of her child after both were kidnapped on
their way to the port of entry to attend their immigration court hearing; both missed
hearing as a result); AR290 (mother and her 9-year-old deaf and mute daughter kidnapped at knife-point blocks from the port of entry through which CBP returned the
family to Mexico; reported being raped and repeatedly beaten while held for ransom).
Those being returned to Mexico by CBP were visually identifiable as returned
migrants because they lacked shoelaces, which were confiscated by CBP while they
were in border custody. This, along with differences in dialect and physical appearance, made them easy prey for criminals who target migrants. AR475. In implementing MPP, the Government delivered asylum seekers into the hands of highly organized criminal cartels exercising significant control in many regions of Mexico, as well
as corrupt Mexican officials. AR374-421. Even with these conditions, only 13% of asylum seekers who received non-refoulement screenings were removed from MPP based

9

on their likelihood of persecution or torture in Mexico. AR653. These screening interviews were so notoriously unlikely to result in relief, and so certain to prolong an
asylum seeker’s detention at the port of entry, that some chose to forego them despite
ample evidence of a reasonable fear of return. AR471, 474-75. DHS’s own internal
review of MPP noted that in some locations CBP was preventing asylum seekers from
accessing non-refoulement interviews and that some CBP officials were reportedly
pressuring USCIS officials to render negative decisions. AR197.
The record documents many reports of Mexican police officials, both local and
federal, directly committing crimes of extortion and kidnapping migrants. AR374, 376,
383, 385, 398, 400, 416-19, 469, 474, 477. These were the same police forces that,
according to MPP policy guidance, were supposed to afford migrants in MPP “all legal
and procedural protection[s] provided for under applicable domestic and international law.” AR152. In one of these incidents a Guatemalan woman reported that
Mexican police took her to the airport and deported her to Guatemala when she refused their demands for extortion, although she told them she was afraid to return
there and showed them her U.S. immigration court documents. AR376. DHS’s internal review of MPP in 2019 recommended that DHS obtain “written assurance [Mexico]
will comply with non-refoulement obligations.” AR198.
The extreme violence, despair, and insecurity people endured under MPP
forced many asylum seekers to choose between risking their lives to travel to hearings
at unsafe ports of entry, frequently in the middle of the night, or abandoning their
claims for humanitarian relief. See, e.g., AR204, 374-421, 472-74. For many asylum

10

seekers in MPP, the unrelenting threat of violence in Mexico came on top of unbearable living conditions that left them without adequate shelter, access to medicine, or
food. See, e.g., AR229 (congressional testimony); AR478 (Human Rights Watch complaint to DHS Office of Inspector General). DHS’s own internal review of MPP noted
that some migrants were required to give up shelter in Mexico in order to attend U.S.
immigration court hearings, rendering them homeless. AR198. DHS’s concerns about
the proportion of in absentia removal orders, a key factor in its decision to terminate
MPP, was properly based on these realities, which are thoroughly documented in the
record. AR4.
2. Inherent procedural problems with MPP, including lack of notice,
led to unusually high in absentia rates
The district court failed to consider evidence in the record showing that, by
design, MPP obstructed respondents’ ability to appear for their hearings, leading to
the high rate of in absentia removal orders. The Government is required to inform a
respondent of the time and place of their removal proceedings via a notice to appear
(“NTA”). 8 C.F.R. § 1239.1. But under MPP, the NTA was virtually useless because
respondents were unable to independently appear for their hearings. See generally
AR168. Instead, they had to go to a designated port of entry so that DHS officials
could transport them to their hearings. AR168, 491, 434 (detailing how individuals
needed to travel through violence-ridden parts of Mexico to arrive at the port of entry
at 4 a.m. to be on time for a morning hearing).4 Moreover, the information regarding

Even when asylum seekers appeared at the border at the correct time, some border
officials turned them away, either willfully or carelessly providing them with false
4

11

when and where to appear for transport was given on a “tear sheet,” a separate document from the NTA, which was only provided in a limited number of languages.
AR491. This documentation process was highly criticized, even within the Government. See AR196-98 (DHS oversight report recommending improvements to processing, including providing language access and a “comprehensive standardized documentation package”).
Compounding these problems, MPP respondents often lacked stable addresses
for follow-up communications from DHS and the immigration court. See AR198 (DHS
report noting that “some migrants must give up shelter space in Mexico when they
come to the US for a hearing . . . leaving them without an address” and recommending
CBP “create a reliable method of communication”); AR438-39 (describing the widespread problem of incorrect addresses on NTAs); AR286 (documenting an NTA listing
“Facebook” as the respondent’s address); AR228, 276 (congressional testimony explaining that NTAs often listed the wrong address, the address of a temporary shelter,
the address of a shelter where the individual had never resided, or no address at all);
AR276 (congressional testimony describing NTAs listing incorrect immigration court
locations). When hearings were changed or rescheduled, respondents alone carried
the burden to figure that out, despite the challenges of living in tents or shelters (if
they were lucky). See, e.g., AR466 (requiring MPP respondents to show up at a port
of entry to receive a new tear sheet following COVID-19-related hearing suspensions);

information. See, e.g., AR439 (Honduran family falsely told they had the wrong court
date).
12

AR311 (congressional testimony detailing inadequate notice when a hearing was advanced at the last minute).
3. Inability to access counsel exacerbated in absentia rates
MPP limited access to legal representation. AR429, 448. The extensive barriers
to legal representation inherent in MPP meant that only 6% of people subjected to
MPP were able to obtain counsel. AR595.5 Due in part to this abysmally low representation rate for individuals in MPP, many people placed into MPP were ordered
removed in absentia. See Section II.A. supra; see also AR569-70, 574 (reports documenting that legal representation increases the likelihood that individuals will appear at hearings).
Lack of representation for asylum seekers in MPP impeded their ability to successfully plead their cases. AR441-42; cf. AR570. Asylum seekers without representation struggled to prepare applications in English, understand complex legal issues,
and present critical evidence. Few asylum seekers in MPP had regular access to computers, printers, or phones, which are essential to compiling asylum applications and
submitting evidence with required translation into English. See, e.g., AR441-42, 447,
382, 387, 393-94. The legal aid lists the Government provided were primarily in English and listed only lawyers in the United States, many of whom were overwhelmed
with requests for representation or were unable to provide representation to people
in Mexico. AR196, 441, 447. Many MPP asylum seekers with bona fide claims were

See also Contrasting Experiences: MPP vs. Non-MPP Immigration Court Cases,
Transactional Records Access Clearing House (Dec. 19, 2019),
https://trac.syr.edu/immigration/reports/587.
5

13

denied protection or gave up claims due to lack of legal representation. AR606 (linking to Human Rights Watch report). None of these systemic failings were even mentioned by the lower courts, despite Secretary Mayorkas’ acknowledgment of them in
his termination memo. See AR4. Ignoring the root causes of MPP in absentia rates—
as detailed in the record—is reversible error.
III. The Lower Courts Disregarded Extensive Record Evidence that a 2019
DHS Assessment of MPP was Wrong.
In determining whether to terminate MPP, the agency reviewed an administrative record of approximately 700 pages, nearly half of which is devoted to evidence
that MPP neither provided “protection” nor adequate “protocol” for asylum seekers.
This evidence came from internal government reviews, AR192-201, DHS whistleblowers, AR246-56, 356-64, medical experts, AR239-45, 314-16, 456-62, nongovernmental organizations and affected individuals, AR221-39, 280-314, 316-56, 374-421,
426-51, 589-613, and media reports, AR422-25, 614-20. Relying on this evidence, Secretary Mayorkas concluded that MPP “had mixed effectiveness” and “experienced significant challenges,” and that “any benefits the program may have offered are now
far outweighed by the challenges, risks, and costs that it presents.” AR3-4.
The lower courts made no effort to weigh this substantial evidence of MPP’s
flaws. Instead, they relied almost entirely on a single October 28, 2019 DHS “assessment” to conclude that Secretary Mayorkas unlawfully “failed to consider several of
the main benefits of MPP.” District Court Order at *18; Fifth Circuit Order at *10
(“The June 1 Memorandum also failed to consider DHS’s prior factual findings on
MPP’s benefits.”); see also District Court Order at *5, *6, *9, *18, *20, *21-22 (relying

14

on the assessment at AR682). But many, if not most, of the claims about MPP’s benefits in the DHS assessment are directly and thoroughly contradicted by other portions of the administrative record. For example, the DHS assessment claims that
“DHS understands that MPP returnees in Mexico are provided access to humanitarian care and assistance, food and housing, work permits, and education.” AR685. This
was largely false. See, e.g., AR478 (“In Matamoros, thousands of asylum seekers in
the MPP have been forced to live in a makeshift refugee camp with little to no support
from the Mexican government.”).6
In essence, the Fifth Circuit and the district court “cherry-picked” a handful of
positive claims about MPP from a mountain of evidence to the contrary, and they
then held that Secretary Mayorkas was required to acknowledge those claims as fact.
This is reversible error. A court may not substitute its judgment for that of the agency,
particularly when it does so on the basis of selected assertions of fact that the record
shows are not accurate and were, in any event, considered by the Secretary. See, e.g.,
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29,
43 (1983). The record is clear that the suspension and cancellation of MPP did not
cause an increase in border crossings, and the Secretary had every reason to conclude
that the high rate of in absentia orders was founded on conditions that unacceptably
limited access to the immigration courts.
CONCLUSION
The Court should grant the stay application.

Another document cited several times by the district court as evidence of MPP’s
benefits simply does not say what the court claims it says. See Section I, supra.
6

15

August 23, 2021

Respectfully submitted,

Katherine E. Melloy Goettel
Aaron Reichlin-Melnick
Gianna Borroto
AMERICAN IMMIGRATION COUNCIL
1331 G Street, NW
Suite 200
Washington, DC 20005

Karen Musalo
Counsel of record
Blaine Bookey
Anne Dutton
CENTER FOR GENDER & REFUGEE STUDIES
200 McAllister Street
San Francisco, CA 94102
(415) 703-8202
musalok@uchastings.edu

Allison Perlin
Rebecca Gendelman
Kennji Kizuka
Anwen Hughes
HUMAN RIGHTS FIRST
805 15th Street, NW
Suite 900
Washington, DC 20005

Melissa Crow
SOUTHERN POVERTY LAW CENTER
1101 17th Street, NW
Suite 705
Washington, DC 20036
Gracie Willis
SOUTHERN POVERTY LAW CENTER
150 E. Ponce de Leon Ave.
Suite 340
Decatur, GA 30030
Counsel for Amici Curiae

16

